TABLE OF APPENDICES
Appendix A

In the Supreme Court of California En
Banc Petition for Review Denied, Sascha
Lynch v. Allen Y. Chao, et al., No.
S263246
App-1
(August 12, 2020)

Appendix B

Order Denying Petition for Rehearing,
the Court in the Appeal of the State of
California, Second Appellate District,
Sascha Lynch v. Allen Y. Chao, et al.,
No. S263246
App-2
(June 24, 2020)

Appendix C

Order Granting the Motion to Dismiss in
the Court of Appeal of the State of
California, Second Appellate District,
Sascha Lynch v. Allen Y. Chao, et al.,
No. B296755
App-4
(June 8,2020)

Appendix D

Order Granting Defendant’s Motion to
Dismiss in the United States District
Court Central District of California,
Sascha Lynch v. Pfizer, Inc., No. 2:15CV-09518-R
App-17
(March 28, 2016)

Appendix E

Order Sustaining Demurrer Without
Leave to Amend in the Los Angeles
Superior Court, County of Los Angeles,
Sascha Lynch v. Allen Y. Chao, et al.,
No. BC703496
App-20
(March 1, 2019)

Appendix F

Memorandum, United States Court of
Appeals for the Ninth Circuit, Sascha
Lynch v. Pfizer, Inc., No. 16-55494
App-24
(April 21, 2017)

Appendix G

Petition for Rehearing in the Court of
Appeal of the State of California, Second
Appellate District Sascha Lynch v.
Allen Y. Chao, et ah, No. B296755
App-26
(June 22, 2020)

Appendix H

Plaintiffs Amended Complaint for
Damages and Demand for Jury Trial,
Sascha Henderson v. Pfizer, Inc., No.
05-08344-R
App-31
(May 3, 2005)
Notice of Demurrer and Demurrer of
Defendants Pfizer, Inc., et al., to First
Amended Complaint for Damages
Sascha Lynch v. Allen Y. Chao, et al.,
No. BC703496
App-35
(September 4, 2018)

Appendix I

Appendix J

Pathology Report Sascha Lynch v.
Allen Y. Chao, et al., No. BC703496
App-37
(October 11,2008)

Appendix K

Order, United States District Court,
Southern District of New York, Sascha
Henderson v. Pfizer, Inc., No. 05-CV0489
App-38
(November 1, 2005)

Appendix L

Plaintiffs Complaint for Damages and
Demand for Jury Trial, Sascha Lynch v.
Pfizer, Inc., No. 2:15-CV-09518-R
App-45
(December 9, 2015)

SUPREME COURT

App-1

FILED

Appendix A

AUG 1 2 Z020
Court- of Appeal, Second Appellate District, Division Three - No. B296755
' j
Jorge Navarrete Clerk
S263246
Deputy

IN THE SUPREME COURT OF CALIFORNIA
En Banc

SASCHA LYNCH, Plaintiff and Appellant,
v.
ALLEN Y. CHAO et al., Defendants and Respondents.

The petition for review is denied.
Chin, J., was recused and did not participate.

S'

I

CANT1L-SAKAUYE
ChiefJustice

eeun? of appeal - second bis?.
App-2

FILED

Appendix B

Jun 24, 2020
DANIEL P. POTTER, Clerk
Derrick Sanders

Deputy Clerk

IN THE COURT OF APPEAL OF THE STATE OF CALIFORNIA
SECOND APPELLATE DISTRICT
DIVISION THREE
SASCHA LYNCH,

B296755

Plaintiff and Appellant,

ORDER DENYING PETITION
FOR REHEARING

v.

ALLEN Y. CHAO, Ph.D. et al.,
Defendants and Respondents.

THE COURT:
Appellant’s petition for rehearing, filed June 22, 2020, is
hereby denied.

15^A'-bv'—EDMON, P. J.

LAVIN, J.

EGERTON, J.

App-3
IN THE COURT OF APPEAL OF THE STATE OF CALIFORNIA
SECOND APPELLATE DISTRICT
DIVISION: 3
DATE: June 24, 2020
SASCHA LYNCH,
Plaintiff and Appellant,
v.
ALLEN Y. CHAO et al.,
Defendants and Respondents.
B296755
Los Angeles County Super. Ct. No. BC703496

THE COURT:
Permission to file appellant's exhibits in support of petition for rehearing is denied.

cc:

Alicia Jane Donahue
Patrick Joseph Gregory
Sascha Lynch
Julie Yongsun Park
Erin McCalmon Bosnian
Steve Vieux
File

App-4
Appendix C

Filed 6/8/20

NOT TO BE PUBLISHED IN THE OFFICIAL REPORTS
California Rules of Court, rule 8.1115(a), prohibits courts and parties from citing or relying on
opinions not certified for publication or ordered published, except as specified by rule
8.1115(b). This opinion has not been certified for publication or ordered published for
purposes of rule 8.1115.

IN THE COURT OF APPEAL OF THE STATE OF CALIFORNIA
COURT OF APPEAL - SECOND BIST.

SECOND APPELLATE DISTRICT

FILED
Jun 08, 2020

DIVISION THREE

DANIEL P. POTTER, Clerk
Derrick Sanders

Deputy Clerk

B296755

SASCHA LYNCH,

(Los Angeles County
Super. Ct. No. BC703496)

Plaintiff and Appellant,
v.

ALLEN Y. CHAO, Ph.D. et al.,
Defendants and Respondents.

APPEAL from an order of the Superior Court of
Los Angeles County, Ramona G. See, Judge. Affirmed.
Sascha Lynch, in pro. per., for Plaintiff and Appellant.
Shook Hardy & Bacon, Alicia J. Donahue, Patrick J.
Gregory, and Steve Vieux for Defendants and Respondents
Pfizer, Inc., Searle Pharmaceuticals, Inc., Searle Laboratories,
G.D. Searle, LLC, Pharmacia Corporation, Allen Chao, Ph.D.,
Monsanto Company and AmerisourceBergen Corporation.

1

App-5

Morrison & Foerster, Erin M. Bosnian and Julie Y. Park for
Defendants and Respondents McKesson Corporation.

Plaintiff Sascha Lynch filed the present action against nine
defendants1 who were developers, manufacturers, and
distributors of an intrauterine contraceptive device (IUD) known
as Copper 7. The operative first amended complaint (FAC)
alleged that plaintiff suffered personal injuries, including
infertility and cancer, as a result of her long-term use of the IUD.
The trial court sustained defendants’ demurrers to the FAC,
concluding the action was untimely and barred by res judicata,
and plaintiff appealed.
We affirm. As we discuss, plaintiff has failed to provide the
court with a complete appellate record, and thus she has forfeited
her appellate claims. Alternatively, plaintiffs action, filed more
than four years after plaintiff was on notice of her claims, is
barred by the statute of limitations. The trial court therefore
properly sustained defendants’ demurrers without leave to
amend.

1
The nine defendants are: Pfizer, Inc.; Searle
Pharmaceuticals, Inc.; Searle Laboratories; G.D. Searle, LLC;
Pharmacia Corporation; Allen Chao, Ph.D.; Monsanto Company;
AmerisourceBergen Corporation; and McKesson Corporation
(McKesson). In the trial court, defendants filed three separate
demurrers. On appeal, all defendants but McKesson filed a
consolidated respondents’ brief; McKesson filed its own brief, but
joins in arguments made by the other defendants.

2

App-6

FACTUAL AND PROCEDURAL BACKGROUND
Plaintiff (born in 1954) had a Copper 7 IUD implanted for
contraceptive purposes in 1984 or 1985. The IUD’s intended
useful life was three years. Plaintiff believed that the IUD had
been spontaneously expelled from her uterus at some unspecified
time, but in 2002, when plaintiff sought medical treatment for
pelvic pain and failure to conceive, an ultrasound revealed the
IUD was still in her body. The IUD was surgically removed, and
subsequent exams revealed masses and abnormalities in
plaintiffs endometrial cavity. Plaintiff was diagnosed with
endometrial cancer in January 2014 and required a
hysterectomy.
Plaintiff filed three separate actions for injuries resulting
from her 17-year use of the IUD. Her first and second actions
(Lynch I and Lynch II, respectively) were filed in 2005 and 2015,
and her third action, filed in 2018, is the subject of the present
appeal. We summarize the relevant procedural history.
A.
Lynch I (2005)
In 2005, plaintiff sued defendant Pfizer, Inc. (Pfizer) in a
New York district court.2 The operative complaint, which
asserted causes of action for negligence, misrepresentation, and
breaches of warranty, alleged plaintiff had become infertile as a
result of her long-term use of the IUD. After the district court
granted plaintiffs motion to transfer the case to California, Pfizer
filed a motion for summary judgment. The district court granted
summary judgment, concluding that plaintiffs action was time-

2
We grant plaintiffs February 27, 2020 request for judicial
notice as to exhibits B, C, and E, and otherwise deny it. (Evid.
Code, § 452.)

3

App-7

barred and plaintiff lacked competent evidence of causation. The
Ninth Circuit affirmed the grant of summary judgment.
B.
Lynch II (2015)
Plaintiff filed a second action against Pfizer in federal
district court in December 2015, alleging that she suffered
additional harms, including cancer, as a result of her use of the
IUD. The district court dismissed the action, concluding it was
barred by res judicata because it alleged the “same cause [s] of
action stemming from the same alleged personal injury, resulting
from the same alleged product defect, under the same legal
theories” asserted in Lynch I. Alternatively, the court found
plaintiffs claims were time-barred because even if plaintiff did
not learn of her endometrial cancer until January 2014, her
knowledge of “cysts and abnormalities for a decade and a half
prior to bringing this suit” put her on inquiry notice of all of her
claims.
In April 2017, the Ninth Circuit affirmed the dismissal,
concluding plaintiffs action was time-barred because plaintiff
was “on inquiry notice of her injury more than two years before
filing this suit.” The United States Supreme Court denied
plaintiffs petition for writ of certiorari in March 2018.
C.
Present Action (2018)
Plaintiff filed the present action against Pfizer and eight
other defendants in April 2018. The operative FAC, which
asserts causes of action for negligence/products liability, strict
products liability, fraudulent concealment, negligent
misrepresentation, intentional concealment, false labeling,
breach of implied warranty, and intentional infliction of
emotional distress, alleges plaintiff suffered personal injuries,
including cancer, as a result of her use of the IUD. The FAC

4

App-8

further alleges this action is timely because the applicable
statutes of limitations were tolled during the pendency of Lynch
II, and this action is not barred by res judicata because plaintiffs
prior cases did not result in “final judgment[s] on the merits.”
Defendants demurred to the FAC, contending that
plaintiffs claims (1) were barred by res judicata because they
asserted violations of the same “primary right[s]” asserted in
Lynch I and Lynch II, and (2) were time-barred because plaintiff
learned of her cancer diagnosis no later than January 2014, more
than four years before she filed the present suit.
Plaintiff opposed the demurrers, asserting res judicata did
not bar her claims because the prior dismissals were not
adjudications on the merits and her endometrial cancer was a
distinct second injury. Plaintiff also contended that the present
case “relatjed] back” to the date of filing of Lynch II, which was
timely filed within two years of plaintiffs discovery of her cancer.
On March 1, 2019, the trial court sustained defendants’
demurrers without leave to amend, concluding that plaintiffs
claims were time-barred and precluded by res judicata. With
respect to res judicata, the court found all demurring defendants
were “in privity with Pfizer, Inc.” (the sole defendant in Lynch I
and Lynch II), the present action alleged violations of the same
primary rights as the prior actions, and Lynch I and Lynch II had
been adjudicated on the merits. With regard to the statutes of
limitations, the court found the applicable limitations periods
ranged from two to four years, and plaintiff was on inquiry notice
of her claims by at least 2008. Moreover, even if plaintiffs claims
did not accrue until plaintiff received her cancer diagnosis in
January 2014, her action, filed more than four years later, was

5

App-9

untimely, and the statutes of limitations were not equitably
tolled.
Plaintiff timely appealed.
DISCUSSION
. Plaintiff contends the present action is timely because her
current claims did not accrue until her January 2014 cancer
diagnosis, and the applicable statutes of limitations were tolled
during the pendency of Lynch II. Plaintiff also contends her prior
actions do not bar the present action because the federal court
decisions were not “final adjudication^]” on the merits, and her
current action is based on a separate and distinct injury.
As we discuss, plaintiff did not provide this court with a
complete appellate record, and thus she has forfeited her
appellate claims. Alternatively, plaintiffs action, filed more than
four years after plaintiff was on notice of her claims, is barred by
the statutes of limitations. We therefore affirm the order of
dismissal.
A
Appealability
We begin by considering whether plaintiff has appealed
from an appealable judgment or order. Plaintiff purports to
appeal from the trial court’s order sustaining the demurrers
without leave to amend. Such an order “is usually not
immediately appealable, because it is not on its face a final
judgment.” (Thaler v. Household Finance Corp. (2000) 80
Cal.App.4th 1093, 1098.) Nonetheless, where an order sustaining
a demurrer fully disposes of a case and the parties treat the order
as a judgment, appellate courts routinely “ ‘deem[ ] the order
sustaining the demurrer to incorporate a judgment of dismissal
and interpret! ] plaintiffs’ notice of appeal as applying to such
dismissal.’ ” {O’Grady v. Merchant Exchange Productions, Inc.

6

App-10

(2019) 41 Cal.App.5th 771, 776, fn. 3 {O'Grady)', see also Sisemore
v. Master Financial, Inc. (2007) 151 Cal.App.4th 1386, 1396
[deeming an order on a demurrer to incorporate a judgment of
dismissal where “[t]he only step left to make the order appealable
was the formal entry of a dismissal order or judgment”]; Villery v.
Department of Corrections & Rehabilitation (2016) 246
Cal.App.4th 407, 412 [unsigned minute order sustaining
demurrer without leave to amend deemed to include appealable
final judgment]; Parker v. Robert E. McKee, Inc. (1992) 3
Cal.App.4th 512, 514, fn. 1 [construing order sustaining
demurrer to include a judgment “[i]n the interest of judicial
economy”].)
Here, the order sustaining the demurrers disposed of the
entire case, and all parties have treated the order as a final
judgment. Moreover, it would “be inefficient to dismiss the
appeal, order the trial court to enter a judgment of dismissal on
the sustained demurrer, and then permit a subsequent appeal
from the dismissal. [Citation.]” (O'Grady, supra;41 Cal.App.5th
at p. 776, fn. 3.) We therefore will deem the order sustaining the
demurrers to incorporate a judgment of dismissal.
Inadequate Appellate Record
B.
“Under well-established rules of appellate procedure,...
the appellant. . . has the burden to provide an adequate record
on appeal and to affirmatively show error.” (In re Marriage of
Deal (2020) 45 Cal.App.5th 613, 622; Osgood v. Landon (2005)
127 Cal.App.4th 425, 435 [“It is the appellant’s affirmative duty
to show error by an adequate record”].) “ ‘Failure to provide an
adequate record on an issue requires that the issue be resolved
against [the] appellant. [Citation.]’ [Citation.] This principle
stems from the well-established rule of appellate review that a

7

App-11

judgment or order is presumed correct and the appellant has the
burden of demonstrating prejudicial error.” {Hotels Nevada, LLC
v. L.A. Pacific Center, Inc. (2012) 203 Cal.App.4th 336, 348.)
In order for this court to review plaintiffs contention that
the trial court erred in sustaining defendants’ demurrers, the
appellate record must contain, at a minimum, the operative
complaint, the demurrers, and any documents filed in support of
the demurrers. Plaintiff included in the appellate record the
operative complaint and defendants’ demurrers3, but she did not
include any of the documents filed in support of the demurrers.
These documents are, among others, McKesson’s request for
judicial notice (which was granted by the trial court),
declarations filed by McKesson, Searle, and AmerisourceBergen,
and some of the defendants’ amended demurrers and reply briefs.
As such, she has not provided an adequate appellate record for
our review, and her claims therefore are deemed forfeited. (E.g.,
Wagner v. Wagner (2008) 162 Cal.App.4th 249, 259.) We cannot
say the trial court’s order sustaining the demurrers was
erroneous if we are unable to review all of the papers defendants
filed in support of the demurrers.4
Although plaintiff did not designate the demurrers for
inclusion in the clerk’s transcript, she provided them as
attachments to her motion to augment, filed April 12, 2019.
3

4

Plaintiffs status as a self-represented litigant does not
excuse her failure to provide an adequate record. “jMjere self­
representation is not a ground for exceptionally lenient
treatment.” (Rappleyea v. Campbell (1994) 8 Cal.4th 975, 984.)
“A doctrine generally requiring or permitting exceptional
treatment of parties who represent themselves would lead to a
quagmire in the trial courts, and would be unfair to the other
parties to litigation.” {Id. at p. 985.)

8

App-12

Plaintiffs Claims Are Untimely
C.
Although plaintiffs failure to provide an adequate
appellate record forfeits her appellate claims, we nonetheless
exercise our discretion to consider on the merits plaintiffs
contention that the trial court erred by sustaining the demurrers.
“In reviewing an order sustaining a demurrer, we assume wellpleaded factual allegations to be true and examine the complaint
de novo to determine whether it alleges facts sufficient to state a
cause of action on any legal theory.” (Kyablue v. Watkins (2012)
210 Cal.App.4th 1288, 1292.) “When a demurrer is sustained
without leave to amend, ‘we decide whether there is a reasonable
possibility that the defect can be cured by amendment: if it can
be, the trial court has abused its discretion and we reverse; if not,
there has been no abuse of discretion and we affirm. . . .’ ” (Kan
v. Guild Mortgage Co. (2014) 230 Cal.App.4th 736, 740-741.)
Plaintiff concedes that her causes of action accrued, at the
latest, when she received her cancer diagnosis in January 2014,
and she agrees that the longest possible limitations period
applicable to her claims is the four-year “catch-all” limitations
period of Business and Professions Code section 17208. Thus,
because plaintiff did not file the present action until April 2018,
more than four years after her cancer diagnosis, her claims are
time-barred.
Plaintiff concedes that she filed this action more than four
years after her causes of action accrued, but she urges her claims
are timely because the statute of limitations was tolled during
the pendency of Lynch II by the supplemental jurisdiction
provision of Title 28 United States Code section 1367 (section
1367). Section 1367 provides that in any civil action of which the
district courts have original jurisdiction, “the district courts shall

9

App-13

have supplemental jurisdiction over all other claims that are so
related to claims in the action within such original jurisdiction
that they form part of the same case or controversy under Article
III of the United States Constitution .” (28 U.S.C. § 1367(a).) A
district court may decline to exercise supplemental jurisdiction if,
among other things, the claim raises a novel issue of state law or
the district court has dismissed all claims over which it had
original jurisdiction. (28 U.S.C. § 1367(c).) If a district court
declines to exercise supplemental jurisdiction, the period of
limitations “shall be tolled while the claim is pending and for a
period of 30 days after it is dismissed unless State law provides
for a longer tolling period.” (28 U.S.C. § 1367(d); Artis v. District
of Columbia (2018) 583 U.S. _ [138 S.Ct. 594, 599].)
Based on the latter provision, plaintiff contends her action
is timely because it was filed within 30 days of the Supreme
Court’s denial of certiorari in Lynch II. But the tolling provision
of section 1367 applies, by its own terms, only to claims as to
which a district court has supplemental jurisdiction. Here, the
district court’s jurisdiction was not supplemental; to the contrary,
the court exercised original jurisdiction based on diversity of
citizenship as to all of plaintiffs claims. (See 28 U.S.C. § 1332.)
Moreover, the district court did not decline to exercise jurisdiction
over plaintiffs claims; it expressly exercised jurisdiction and
dismissed plaintiffs claims on statute of limitations and res
judicata grounds. The tolling provision of section 1367(d),
therefore, does not apply. (See 28 U.S.C. § 1367(d).)
Plaintiff alternatively contends that her claims are saved
by California’s “equitable tolling” doctrine. “Equitable tolling is a
judicially created doctrine that, where applicable, will ‘ “suspend
or extend a statute of limitations as necessary to ensure

10

App-14

fundamental practicality and fairness.” ’ {McDonald v. Antelope
Valley Community College Dist. (2008) 45 Cal.4th 88, 99
(McDonald).)” (Long v. Forty Niners Football Co., LLC (2019)
33 Cal.App.5th 550, 554-555 (Long).) As with other general
equitable principles, the doctrine of equitable tolling “is applied
flexibly to 'ensure fundamental practicality and fairness.’ ” (J.M.
v. Huntington Beach Union High School Dist. (2017) 2 Cal.5th
648, 658.)
A plaintiff seeking the benefit of equitable tolling must
show three elements: « < atimely notice, and lack of prejudice, to
the defendant, and reasonable and good faith conduct on the part
of the plaintiff.” ’ (McDonald, supra, 45 Cal.4th at p. 102.)”
(Long, supra, 33 Cal.App.5th at p. 555.) “ ‘Broadly speaking, the
doctrine applies “ ‘[w]hen an injured person has several legal
remedies and, reasonably and in good faith, pursues one.
(Ibid., quoting McDonald, at p. 100.) The doctrine does not apply,
however, where, as here, a plaintiff fully litigates an action in one
forum and then files a nearly identical lawsuit in a second forum.
(See Long, at pp. 555-557 [equitable tolling did not apply where
plaintiff almost fully litigated a state case before filing an
identical action in federal court; “the doctrine of equitable tolling
was not intended to burden a defendant or the courts with having
to repeatedly restart litigation of a case that was almost fully
adjudicated, simply because the plaintiff had a last-minute
change of mind about the forum”].)
None of the authorities plaintiff cites supports the
proposition that equitable tolling applies to a factual situation
even remotely similar to hers. (See, e.g., Morales v. City of Los
Angeles (2000) 214 F.3d 1151, 1155 [42 U.S.C. § 1983 actions
alleging police misconduct in previous lawsuits were not timej « 5 »

11

App-15

barred because the subsequent action did not accrue until
judgments were entered against plaintiffs in the prior actions];
Pearson Dental Supplies, Inc. v. Superior Court (2010) 48 Cal. 4th
665, 673-675 [pursuant to Code Civ. Proc., § 1281.12, time to
initiate arbitration was tolled while plaintiff pursued court
action]; Hardy v. America’s Best Home Loans (2014) 232
Cal.App.4th 795, 806-807 [penalty dismissal under Fed. Rules
Civ. Proc., rule 41(b), for failure to obey court order had no
collateral estoppel effect].)
Thus, for all of these reasons, the trial court correctly
concluded that plaintiffs claims are time-barred.
D.
No Abuse of Discretion in Denying Leave to
Amend
“An order sustaining a demurrer without leave to amend
will constitute an abuse of discretion if there is any reasonable
possibility that the defect can be cured by an amendment.”
(Careau & Co. v. Security Pacific Business Credit, Inc. <1990) 222
Cal.App.3d 1371, 1387.) “The burden is on the plaintiff[ ] to
demonstrate that the trial court abused its discretion and to show
in what manner the pleadings can be amended and how such
amendments will change the legal effect of [the] pleadings.”
(Id. at p. 1388.)
Plaintiff does not establish that an amendment would cure
the fatal defect presented by the expired statutes of limitations.
(See Yee v. Mobilehome Park Rental Review Bd. (1998)
62 Cal.App.4th 1409, 1429 [leave to amend properly denied
where claims were barred by limitations statutes].) Accordingly,
the trial court did not abuse its discretion in sustaining the
demurrer without leave to amend.

12

App-16

DISPOSITION
The order of dismissal is affirmed. Plaintiffs request for
judicial notice, filed February 27, 2020, is granted as to exhibits
B, C, and E, and is otherwise denied. Defendants are awarded
their appellate costs.
NOT TO BE PUBLISHED IN THE OFFICIAL
REPORTS

EDMON, P. J.

I concur:

EGERTON, J.

13

f.

/
App-17

■2-

Case 2:15-cv-09518-R-RAO Documep^eM&d P/28/16 Page lot 3 PagelD#:396

1

JS-6

2
3
4
i

5
6
7
8
9
UNITED STATES DISTRICT COURT

10

CENTRAL DISTRICT OF CALIFORNIA

11
12

SASCHA LYNCH,

13

Plaintiff,

14
v.
15
16
17
18
19
20
21
22

PFIZER INC.,
Defendant.

) CASE NO. CV15-9518-R
)
) ORDER GRANTING DEFENDANT’S
) MOTION TO DISMISS
)
)
)
)
)
)
)
)
)
)

Before the Court is Defendant’s Motion to Dismiss, which was filed on February 1,2015.
(Dkt. No. 15). This Court took the matter under submission on March 15,2016.

23

Dismissal under Federal Rule of Civil Procedure 12(b)(6) is proper only when a complaint

24

exhibits either a “(1) lack of a cognizable legal theory or (2) the absence of sufficient facts alleged

25

under a cognizable legal theory.” Balistreri v. Pacifica Police Dept., 901 F.2d 696,699 (9th Cir.

26

1988). Under the heightened pleading standards of Bell Atl. Corp. v. Twombfy, 550 U.S. 544

27

(2007) and Ashcroft v. Iqbal, 556 U.S. 662 (2009), a plaintiff must allege “enough facts to state a

28

claim to relief that is plausible on its face,” so that the defendant receives “fair notice of what

§

App-18
m:

'

Case 2:15-cv-09518-R-RAO Document 26 Filed 03/28/16 Page 2 of 3 Page1D#:397

1

the... claim is and the grounds upon which it tests.” Twombly, 550 U.S. at 570. The Plaintiff

2

must plead factual content that allows the court to draw die reasonable inference that the defendant

3

is liable for the alleged misconduct. Iqbal, 556 U.S. at 678. The court will not accept “threadbare

4

recitals of the elements of a cause of action, supported by mere conclusory statements...” Id.

5

Res Judicata, or “[c]laim preclusion prevents relitigation of the same cause of action in a

6

second suit between the same parties or parties in privity with diem.” DKN Holdings LLC v.

7

Faerber, 61 Cal. 4th 813,824 (2015) (emphasis omitted) (citations omitted) (internal quotation

8

marks omitted). An acdon is barred by claim preclusion if “a second suit involves: (1) the same

9

cause of action (2) between the same parties (3) after a final judgment on the merits in the first

10
11

suit” Id.
In California, die scope of a cause of action is determined by “die primary rights theory.”

12

Takahashi v. BdofEduc., 202 Cal. App. 3d 1464,1474 (1988) (internal quotation marics omitted).

13

“Under this theory, the underlying right sought to be enforced determines the cause of action. In

14

determining the primary right “the significant factor is the harm suffered.” Id. (citations omitted)

15

(internal quotation marics omitted). As for “[t]he rules of finality, both statutory and judge made,

16

treat a dismissal on statute-of-limitations grounds the same way they treat a dismissal for failure to

17

state a claim, for failure to prove substantive liability, or for failure to prosecute: as a judgment on

18

the merits.” Plant v. Spendthrift Farm, Inc., 514 U.S. 211,228 (1995).

19

The same Plaintiff in this case brought the same causes of action against the same

20

Defendant in her previous 2004 case. While Plaintiff now alleges a series of harms which include

21

cancer, the Plaintiff is simply providing additional evidence concerning the same cause of action

22

stemming from the same alleged personal injury, resulting from die same alleged product defect,

23

under the same legal theories. As pled here, die harm suffered is identical under die primary rights

24

approach such as to invoke claim preclusive effect. See generally Takahashi, 202 Cat App. 3d at

25

1474. While discovery of new injuries can potentially lead to a new cause of action free from the

26

limitations of res judicata, here, the harms of the 2004 case and the present Complaint both point

27

to the same residual physical injuries resulting from the same alleged failure of Defendant’s

28

predecessor-in-interest’s product. The impact of the statute of limitations on disposing of die
2

i

':

i

App^l9
Cast 2:15-cv-09518-R-RAO Document 26 Filed 03/28/16 Page 3 of 3 Page ID #:398

1

Plaintiff’s 2004 case does not save Plaintiff’s new Complaint from the limitations of claim

2

preclusion. See generally Plant, 514 U.S. 228.

3

Even were the Plaintiff’s Complaint not to fail as a result of claim preclusion, it would still

4

fail for failure to comply with the statute of limitations. The applicable statute of limitations in

5

California is two yearn. Cal. Civ. Proc. Code § 335.1. Under the discovery rule, “the plaintiff

6

discovers the cause of action when he at least suspects a factual basis, as opposed to a legal theory,

7

for its elements, even if he lacks knowledge thereof-when, simply put, he at least ‘suspects ... that

8

someone has done something wrong’ to him.” Norgart v. Upjohn Co., 21 Cal. 4th 383,397 (1999)

9

(citations omitted) (internal quotation marks omitted). A plaintiff need not be aware of specific

10

facts which give rise to a specific cause of action “but, within the applicable limitations period, he

11

must indeed seek to team the facte necessary to bring the cause of action in the first place-he

12

cannot wait for them to find him and sit on his rights; he must go find them himself if he can and

13

file suit if he does.” Id. at 398 (citations omitted) (internal quotation marks omitted).

14

Even if Plaintiff was not specifically told of her endometrial cancer until January 6,2014,

15

she was aware of medical injuries, including cysts and abnormalities for a decade-and-a-half prior

16

to bringing this suit. Despite having been advised for the need of an EMB examination, Plaintiff

17

appears to not have followed through with this advice until 2008. Even after the EMB provided

18

concerning findings, Plaintiff did not continue a diligent inquiry until December of 2013 when she

19

received more testing. Despite having significant information concerning her harm, at the latest in

20

2008, Plaintiff failed to “seek to learn the facte necessary to bring the cause of action” until well

21

after the applicable statute of limitations period, and therefore this Court must GRANT

22

Defendant’s Motion to Dismiss.

23

IT IS HEREBY ORDERED that Defendants’ Motion to Dismiss is GRANTED. (Dkt

24

No. 15).

25

Dated: March 28,2016.

26
27
28

MANUEL L. REAL
UNITED STATES DISTRICT JUDGE
3

App-20

SUPERIOR COURT OF CAL^fMfefcOUNTY OF LOS ANGELES
Civil Division
Southwest District, Torrance Courthouse, Department M
BC703496

SASCHA LYNCH VS ALLEN Y CHAO PHD ET AL
Judge: Honorable Ramona G. See
Judicial Assistant: C. Morales
Courtroom Assistant: M. Fondon

March 1,2019
9:30 AM

CSR: None
ERM: None
Deputy Sheriff: None

APPEARANCES:
For Plaintiffs): No Appearances
For Defendant(s): No Appearances

NATURE OF PROCEEDINGS: Ruling on Submitted Matter
1. McKesson Corporation’s Demurrer to Plaintiffs First Amended Complaint
2. Pfizer, Inc., et al.’s Demurrer to Plaintiffs First Amended Complaint
3. AmerisourceBergen Corporation’s Demurrer to Plaintiffs First Amended Complaint

The Court, having taken the matter under submission on 02/26/2019, now rules as follows:
Defendant McKesson Corporation’s Demurrer to Plaintiffs First Amended Complaint,
Defendants Pfizer, Inc., Searle Pharmaceuticals, Inc., Searle Laboratories, G.D. Searle LLC,
Pharamacia Corporation, Allan Chao, Ph.D. and Monsanto Company’s
Demurrer to First Amended Complaint for Damages, and Defendant AmerisourceBergen
Corporation’s Demurrer to Plaintiffs First Amended Complaint are sustained without leave to
amend on the grounds that Plaintiffs claims against these defendants are barred by the rulings in
Sascha Henderson v. G.D. Searle & Co.,et al., No. BC324095 (Sup. Ct., Los Angeles County);
Judgment entered on August 28,2006 in Sascha Henderson v. Pfizer Inc., No. 2:05-cv-08344-RJTL (C.D. Cal.); Plaintiffs Complaint for Damages and Demand for Jury Trial filed on
December 9,2015 in Sascha Lynch v. Pfizer Inc., No. 2:15-cv-09518-R-RAO (C.D. Cal);
Judgment entered on March 28,2016 in Sascha Lynch v. Pfizer Inc., No. 2:15-cv-09518-R-RAO
(C.D. Cal) under the doctrines of collateral estoppel and res judicata.
On April 24, 2018 plaintiff filed her Complaint in the instant action, and her First Amended
Complaint was filed on July 30, 2018. Plaintiff alleges that she suffered injuries after an
intrauterine contraceptive device (“CU-7”) was surgically implanted sometime between March
1984 and February 1985. Plaintiff alleged claims for Negligence - Products Liability, Strict
Products Liability, Fraudulent Concealment, Negligent Misrepresentation, Intentional
Concealment, Violation of Business and Professions Code, Breach of Implied Warranty, and
Minute Order

Page 1 of 4

App-21

SUPERIOR COURT OF CALIFORNIA, COUNTY OF LOS ANGELES
Civil Division
Southwest District, Torrance Courthouse, Department M
BC703496

SASCHA LYNCH YS ALLEN Y CHAO PHD ET AL
Judge: Honorable Ramona G. See
Judicial Assistant: C. Morales
Courtroom Assistant: M. Fondon

March 1, 2019
9:30 AM

CSR: None
ERM: None
Deputy Sheriff: None

Intentional Infliction of Emotional Distress. Pursuant to Evidence Code § 452(d), the Court takes
judicial notice of the records of this court and of the U. S. District Court for the Central District
of California:
“Res judicata, or claim preclusion, prevents relitigation of the same cause of action in a second
suit between the same parties or parties in privity with them. Collateral estoppel, or issue
preclusion, precludes relitigation of issues argued and decided in prior proceedings. Res judicata
precludes the relitigation of a cause of action only if (1) the decision in the prior proceeding is
final and on the merits; (2) the present action is on the same cause of action as the prior
proceeding; and (3) the parties in the present action or parties in privity with them were parties to
the prior proceeding. Res judicata bars the litigation not only of issues that were actually litigated
in the prior proceeding, but also issues that could have been litigated in that proceeding.” Zevnik
v. Superior Court (2008) 159 Cal.App.4th 76, 82 (internal citations and quotations omitted).
“Collateral estoppel precludes the relitigation of an issue only if (1) the issue is identical to an
issue decided in a prior proceeding; (2) the issue was actually litigated; (3) the issue was
necessarily decided; (4) the decision in the prior proceeding is final and on the merits; and (5) the
party against whom collateral estoppel is asserted was a party to the prior proceeding or in
privity with a party to the prior proceeding.” Zevnik v. Superior Court (2008) 159 Cal.App.4th
76, 82.
Plaintiffs claims were ordered dismissed in both Sascha Henderson v. Pfizer Inc., No. 2:05-cv08344-R-JTL (C.D. Cal.) and Sascha Lynch v. Pfizer Inc., No. 2:15-cv-09518-R-RAO (C.D.
Cal) based on the bar of the statute of limitations, as well as, res judicata in the latter case. The
instant action is barred based on the same grounds.
The prior actions were adjudicated on the merits. The present action involves the same primary
right as the prior actions. The same plaintiff is involved in all the actions. Defendant Pfizer, Inc.
was the same defendant in all actions. As to all the other demurring defendants, Defendants are
in privity with Pfizer, Inc. as either employees and/or agents of Pfizer, Inc. and/or as distributors
of the CU-7 which was manufactured by Pfizer’s predecessor. Assuming arguendo, if the parties
are not all deemed to be in pri vity, the issue of the statute of limitations was definitively
established against Plaintiff in the prior proceedings and thus plaintiff is prevented from re­
litigating this issue in the instant action. The prior actions were dismissed based on the ground
that the claims were barred because Plaintiff had inquiry notice of her claims at least by 2008.
Plaintiff argues that her claims do, indeed, “relate back” to the Complaint filed in Sascha Lynch
v. Pfizer Inc., No. 2:15-cv-09518-R-RAO (C.D. Cal). This argument is not helpful to Plaintiff
and further underscores that her claims are barred by res judicata and collateral estoppel based on
Page 2 of 4
Minute Order

App-22
SUPERIOR COURT OF CALIFORNIA, COUNTY OF LOS ANGELES
Civil Division
Southwest District, Torrance Courthouse, Department M
BC703496

SASCHA LYNCH VS ALLEN Y CHAO PHD ET AL
Judge: Honorable Ramona G. See
Judicial Assistant: C. Morales
Courtroom Assistant: M. Fondon

March 1, 2019
9:30 AM

CSR: None
ERM: None
Deputy Sheriff: None

the judgment entered against Plaintiff in that action. Plaintiff cannot simply re-file a State lawsuit
asserting the same claims based on the same primary right. Full faith and credit is given to orders
of federal court in the state court. See Roos v. Red (2005) 130 Cal.App.4th 870, 886.
Plaintiff also argues that 28 U.S.C. § 1367(d) provides her a thirty-day window to re-file her
lawsuit in this Court. Section 1367 applies to federal district court cases in which a federal court
has original jurisdiction over a claim and also exercises supplemental jurisdiction over a claim
over which it normally would have no jurisdiction. If the federal district court later dismisses the
claim over which it had original jurisdiction, then the supplemental jurisdiction claim must also
be dismissed. Section 1367(d), however, provides the party thirty days to re-file that latter claim
in state court. The U.S. District Court, however, never exercised supplemental jurisdiction and
thus Section 1367 is not applicable.
For the same reasons noted by the prior U.S. District Court rulings, Plaintiffs claims are barred
by the statute of limitations. The applicable statutes of limitations for Plaintiffs claims run from
two to four years, with the Bus. & Prof. Code § 17200 claim providing for a four-year statute of
limitations. See Bus. & Prof. Code § 17208. Plaintiff was aware of her alleged injuries as early
as 2008, but, did not file suit until more than four years later, in April 2018. Even utilizing the
alleged cancer diagnosis of January 4, 2014, this date is more than four years before she first
brought this action on April 24, 2018.
At the hearing, Plaintiff referred to Semtek Intern. Inc. v. Lockheed Martin Corp. (2001) 531
U.S. 497, 505-06. The Court finds Semtek inapposite. In Semtek, that defendant removed the
plaintiffs lawsuit which alleged breach of contract and various business torts from a California
state court to the federal court on the basis of diversity of citizenship, the federal court dismissed
the lawsuit on the grounds that it was barred by California's two-year statute of limitations, the
Ninth Circuit Court of Appeals affirmed that decision. Thereafter, the Semtek plaintiff filed a
new action in the Maryland circuit court which was not barred by the Maryland three-year statute
of limitations, but the Maryland court dismissed the suit on the ground of res judicata because
the Maryland suit was barred by the California federal court's dismissal under federal law on the
merits and was claim-preclusive. The United States Supreme Court reversed and remanded
stating that the Maryland Court of Special Appeals had erred in holding that the California
federal court’s dismissal "on the merits" on statute-of-limitations grounds necessarily precluded
the bringing of the action in the Maryland state courts. Here, the same claims are being re­
asserted in the California court and the same California statutes of limitations apply. Plaintiff is
not attempting to assert claims based on a different State’s statutes of limitations which may be
different than California’s statutes. Thus, the holding in Semtek Int’l, does not apply to the facts
of this case.
Minute Order
Page 3 of 4

App-23
SUPERIOR COURT OF CALIFORNIA, COUNTY OF LOS ANGELES
Civil Division
Southwest District, Torrance Courthouse, Department M
BC703496

SASCHA LYNCH VS ALLEN Y CHAO PHD ET AL
Judge: Honorable Ramona G. See
Judicial Assistant: C. Morales
Courtroom Assistant: M. Fondon

March 1, 2019
9:30 AM

CSR: None
ERM: None
Deputy Sheriff: None

Plaintiff also referred to Code of Civil Procedure § 340.8 which is the statute of limitations for
exposure to hazardous materials and toxic substances. Plaintiff contends that this statute of
limitations applies and thus the current claims relate back to the federal court action. This
argument, however, demonstrates that the federal court action was already adjudicated against
Plaintiff, and is dispositive as to all claims that were or could have been brought in that case.
Further, section 340.8 also provides for a two-year statute of limitations which begins to run
when plaintiff becomes aware of or reasonably should have been aware of the injury, and claims
that may have been subject to this statute would also have been barred by the statute of
limitations.
McKesson’s Request for Judicial Notice is granted. See Evidence Code § 452(d).
Plaintiffs Requests for Judicial Notice is granted as to Exhibits A-G, I, and J. See Evidence
Code § 452(d). Plaintiffs Request for Judicial Notice of Exhibit H is denied.
Clerk is ordered to give notice of this ruling.

Certificate of Mailing is attached.

Minute Order

Page 4 of 4

Case: 16-55494,06/01/2017, ID: 104&BR*bkl£ntry: 21, Page 21 ol 23
Case: 16-55494.04*21/2017, ID: lfSiffiSfiSfcStr)/: 1S-1, Page 1 of 2

NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS

FILED
APR 212017
ikju-y a aarwR. ctssc
OS.COURTOFWE41S

FOR THE NINTH OR-CUTT
SASCHA LYNCH,

No. 16-55494

-

Piamtiff-AppcUant,
v.

D.C. No. 2:15-cv-09518-R-RAO
MEMORANDUM*

PFIZER, INC.,
Defeodant-Appdlee.
Appeal fiwuteUiiilwl Stoics District Court
for the Central District of California
Manuel L. Real, District Judge, Presiding
Submitted April 11,2017
Before:

GOULD, CLIFTON, and HURWTTZ, Circuit Jud^s.

Sascha Lynch appeals pro se from Ok district court’s order dismissing her
diversity action alleging claims arising from an intrauterine device. We have
jurisdiction under 28 U.S.C. § 1291. We review de novo a dismissal on die baas
of die applicable statute oflimitatians- Lukovskyv. Oiy & County ofSan

*
This disposition is not
except as piwidedby Niu* Cinaiit Rule 36-3.
7mTmnr>:K

without oral argument. See Fed. IL App. P- 34{aX2)-

Case: 16-55494,06/01/2017, ID

: 10^08'^ DktEntry: 21, Page 22 of 23

Case: 16-55494.04/21/2017. ID: 10406201, DktEntiy: 18-1. Page 2 of 2

Francisco, 535F3d 1044,1047(9thOr.M08). Weaffinn.
The district court
of limitations because Lynch was on imfliny notice ofher iajnry more man two
years before

filing fltislawsttiL SeeFazv ElhiconEndo-Smgery.I^.iSC^^fh

797,808 (2005) (plainti

B&aiediaigedwifli^aeOTii^ivekDOwde^^ofaiiliginy

ifteyteve iBforaBt«m ofcmwraaaiices^
<MmttedairfiiitOTialqiiOftatioiiiiiaiks<»iiitted));Aro/gartv. UpjoknCo 21CaL4th
i, 398 n3 (1999) (knowledge of the harm is nof required for die claim to

383

accrue).
We do not <»nsder issues which are

**

Acosta-Huerta v. Estelle, 7 F.3d 139,144 (9th Or. 1993).
Lynch’s request for judicial notice (Docket Entry No. 17) is denied.
AFFIRMED.

2

16-5344*

CourS of Af^esL SsxweJ AjpeHaJe District
Etaisef F.Feffler
BecSraracaily RECEIVES? or €S22J2®20 raa $02311M

App-26

ConJ cfAppsai SecmheI Ajijfzflaic iSarid
EteaiicIF-IWJer
^saroracallylllSJ ran €$2212012® fey E&snricfc Samfers. EtefMly dcrk

Appendix G

TN THE COURT OF APPEAL OF THE STATE OF CALIFORNIA
SECOND APPELLATE DISTRICT
DIVISION SEVEN
No. B296755

SASCHA LYNCH,
Plaintiff and Appellant,
v.
ALLEN Y. CHAO, PhD, et al.
APPEAL FROM THE SUPERIOR COURT OF LOS ANGELES
SUPERIOR COURT CASE NO. BC 703 496
HONORABLE RAMONA G. SEE

APPELLANT’S PETITION FOR REHEARING

Sascha Lynch
P.O.Box 1424
Inglewood, CA 90308
(424) 644-3062
Email: timeless2t@gmail.com
Appellant
Self-Represented

App-27
the record that Appellant filed was inadequate, because she did not include
any of die documents filed in support of the demurrers and that if it cannot
review all the papers filed supporting the demurrers, it cannot say that the
trial court’s order sustaining the demurrers was erroneous.
But, on May 22,2019 this Court granted Appellant’s request to
augment the record on appeal and all the documents filed supporting the
demurrers are in the record on appeal. This Court is thus in a position to see
that the trial court’s order sustaining the demurrers was erroneous.
It is Appellant’s hope by bringing these clarification charts and
supporting information showing this court’s analysis is flawed and should
in no way deem her claims forfeited when the very documents referenced in
its Opinion were either augmented into the record, can be found in the
cleric’s transcript or were made iirelevant either by withdrawal or carried no
weight based on state statutes to the proceedings of this court.

n.
The Court Of Appeal Opinion Omits A Material Fact Raised By
Appellant In Her Reply Brief And Motion Requesting Judicial
Notice Of Exhibit C And Its Attachment Of Monsanto
Corporation’s Former Counsel John B. Winski’s Email
Statement Which Equitably Estops Respondents’ Statute Of
Limitations Defense In This Matter Where This Court Noticed
The Exhibit C But Denied The Material Fact Attachment
In People ex rel. Lockyer v. Shamrock Foods Co. (2000) 24 Cal.4th
415,422, the reviewing court found that a proper subject for judicial notice
must be noticed when relevant. This point cannot be emphasized enough!
Besides the mistaken ruling that petitioner presented an inadequate record
for review, there is little doubt the question of statute of limitations here
ranks parallel in nature. Petitioner wishes to bring to the Court’s attention

-7-

App-28
that it has not addresesed a material issue in its approprate factual or legal
context.
Appellant filed a motion requesting that this Court judicially notice
Exhibit C, Plaintiffs Amended Complaint for Damages and Demand for
Jury Trial filed in Lynch I and in the present action was filed as Exhibit G
filed by respondents in the trial court. This Court judicially noticed
Appellant’s Exhibit C but denied its corresponding attachments referenced
in the exhibit on page 4. Appellant hereby resubmits Exhibit C to this
Petition (in its full form and in the manner of continuity of exhibits
attached hereto) as Exhibit 8, pages 118-133)1. Section 452(d) of the
California Evidence Code states in part that a court may take judicial notice
of the records of any court of this State. Exhibit G is a record of the
Superior court in the underlying action. There is no reason why this Court
should judicially notice only part of it when all of it was filed in the
Superior Court of California County of Los Angeles.
When Exhibit G was filed by respondents’ in the trial court there
were two attachments A (two pages) and B. That fact has not changed here.
The last page of Exhibit G is attachment B, which is an email to Appellant
from John B. Winski, corporate counsel for Monsanto, dated May 11,2004.
Mr. Winski stated that Monsanto was not liable and explained why liability
rested with Pharmacia Corporation, a wholly-owned subsidiaiy of
Respondent Pfizer in this action. Mr. Winski told Appellant to contact
Pfizer regarding her concerns.

1 Respondent Pfizer, Inc. et al. counsel’s attached Declaration of Steve
Vieux In Support of the First Amended Complaint for Damages filed
September 4,2018 is being presented for the sole purpose of providing this
Court continuity of Exhibit G’s reference in this matter when filed in the
Superior Court of California County of Los Angeles.
-8-

App-29
Based on Mr. Winski’s representation to Appellant that Monsanto
was not liable and Pfizer was, Appellant did not sue Monsanto until after
the statute of limitation for suing Monsanto expired.
Pfizer filed a demurrer in this action to the First Amended Complaint
on September 4,2018. That demurrer (attached hereto under Exhibit 1, as
pages 8 - 26) is part of the Motion to Augment for this appeal. Page 7, lines
22-25, of the demurrer state that “[w]hile Monsanto is no longer part of
Pfizer, it was the prior parent company of the Pfizer predecessor-in-interest
that marketed and developed the Cu-7. Monsanto’s human pharmaceutical
assets and responsibilities, which previously had responsibility for the Cu7, remained with Pfizer even after it was spun off in 2016.” In other words,
contrary to the claim of Monsanto’s counsel Mr. Winski, Monsanto was
liable for Plaintiff’s injury along with co-Defendant Pfizer.
Appellant was never aware that Pfizer considered Monsanto
“responsible” and liable until after respondent Pfizer, Inc. et al.’s demurrer.
Monsanto’s initial misrepresentation to Appellant that Monsanto was not
liable, causing Plaintiff not to sue Monsanto until after the statute of
limitation expired, estops respondents’ Pfizer, Inc. et al. and Monsanto
from relying on the statute of limitation defense:
“When a party has, by his own statement or
conduct, intentionally and deliberately led
another to believe a particular filing true and to
act upon such belief, he is not, in any litigation
arising out of such statement or conduct,
permitted to contradict it.” California Evidence
Code Section 623.
Four elements must ordinarily be proved to establish an equitable
estoppel: (1) the party to be estopped must know the facts, (2) he must
intend that his conduct shall be acted upon, or must so act that the party

-9-

App-30
asserting the estoppel had the right to believe that it was so intended, (3) the
party asserting the estoppel must be ignorant of the true state of the facts,
and (4) he must rely upon the conduct to his injury. DRG/Beverly Hills, Ltd.
v. Chopsiix Dim Sum Cafe & Takeout ITT, Ltd. (1994) 30 Cal.App.4th 54,
59; Insurance Co. of the West v. Haralambos Beverage Co. (1987) 195
Cal.App.3d 1308,1321. All these elements are present here and caused
Appellant not to sue Monsanto until the statute of limitation expired.
The California Supreme Court addressed the doctrine of equitable
estoppel stating “A defendant should not be permitted to lull his adversary
into a false sense of security, cause the bar of the statute of limitations to
occur and then plead in defense the delay occasioned by his own conduct.”
(Carruth v. Fritch (1950) 36 Cal. 2d 426,433.) In the present matter, this
Court’s reasoning on pages 9 through 12, omits this material fact pursuant
to Rule 8.268 that equitable estoppel as presented before it applies and
could make a difference in the disposition of the motion to dismiss.
Appellant has a right to have both the attachment to judicially
noticed Exhibit C by die Court, as is explained by the three-step analysis
put forth below.
First, the documents at issue are part of the trial court record meaning they may be judicially noticed pursuant to Evidence Code Section
452(d).
Furthermore, that the documents are true and correct copies of what
they purport to be cannot reasonably be challenged, thus they may be
judicially noticed pursuant to Evidence Code Section 452(h).
In addition, because Respondents’ have no good reason to dispute
the truth of the documents to be judicially noticed since they filed it and its
attachments in the trial court, that factual matter can be judically noticed
pursuant to Section 452(h). (See Evid. Code, § 452, subd. (h); see also
Pang v. Beverly Hosp., Inc. (2000) Cal.App.403 986,989-990 (“we may
-10-

Case 2:15-CV-09518-R-RAO Document l&SP'ftJed 02/01/16 Page 2 of 9 PageiD#;115
•»

».*

L,
-z=t- - ^

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF HEW YORK

/
X

R£.SEi
IE No. 0SCV0489

ti

0 3 2005’

Hon. Shim A. Schemdlin

SASCHA HENDERSON

ir^|^

OF

3/ is/

nAlRTIIPS AMENDED COMPLAINT
FOR DAMAGES AND DEMAND FOR JURY
TRIAL

Plaintiff,

1.
2.
3.
4.
5.

-werausPFIZER INC.,

fi so : ffl
h

Negligence
CLERK, u s OiSTRlCT COURT || f|
Misreprcsentatkn
Express Warrant a
Implied Warrant! s
Punitive Damage

Defendant.

fornC

CENTRALOiSTAC

and fflea this Amended Complaint governed by Fed.R_Civ.P 15(a) and alleges, as follows.

:

v-’

•

<*>•-

-

65-08344 SJ0

Defendant PFIZER INC. (■Pfizer*) is, and at ah times herein mentioned is, a corporatkni

o

u

organized an existing under the laws of die State of Delaware with its principle place of

<u

a

hnaihesa at 235 East 42nd Street, New York 10017. Said corporation may be served with a

4>
s-

(X

Mimmnna by serving defendant’s officers, managing agents, or agents expressly or impliedly

3
CO
<

authorized to receive service of summons.
2.

i

M.,

<wro boh PLAINTIFF SASCHA HENDERSON for causes of action against defend

PRELIMINARY STATEMENT

o

MOV 23 2006

Hearing Date: May 9,2< 08

1.

|

u

Plaintiff is informed and believes, that this Court has jurisdiction over this action in

<L>

-3

v

that defendant’s corporate offioe is in this jurisdictional area pursuant to 28 U.S.C. §
1391(a)(1), and is the owner of the defunct subsidiary pharmaceutical company G.D. Searte &
Co. (hereinafter referred to as “Searte’ or “subsidiary*), which manufactured the medical device

x>
T3
a>
>

that cause plaintiff’s injury., and all defendants are subject to personal jurisdiction in this

<u
o
<u
l-

district, because of their contacts with and activities in this district. Pfizer Inc. has assumed all

3

<i>

responsibility of its subsidiary Searle. Plaintiff also alleges that support of her claim is based on

a3

o

o

New York State Civil Practke Lsws and Rules, Art. 2, §214, pertaining to its statute of

Q
limitations law.
3.

Searie is, and at all times herein mentioned was, engaged in the business of designing,

manllfarfnring and assembling the Cu-7 (also knows as the Copper 7) for sale to and use by
-l-

Exhibit C - 022

Case 2:15-CV-G9518-R-RAO Document io^P r^ed 02/01/16 Page 5 of 9 Page ID #*.118
*

* i

#.*
14.

On January 14,2002, plaintiff attempted to contact Searie by fax and telephone to find

out the effect of the Cu-7 would have in an approximately 17+year period, [see Exhibit A_____
attached]. This letter to G.D. Searie & Co was to their foundation, and not a corporate office to
inquire. This contact information was the only source available at the time. Plaintiff did not
discover that defendant Pfizer Inc., was the current owner of the subsidiary until May 11,
2004, when plaintiff received an email response from Monsanto’s in-house counsel, John
Winski regarding plaintiff’s inquiry (see Exhibit. B).____________________________
15.

Plaintiff also alleges that as a result of the embedding of the copper content of the IUD,

Plaintiff sustained residual effects from the absorption and retention of this metal in the form
of copper toxicity or a type of poisoning, that manifested itself in plaintiff's body as bouts of
severe headaches, abdominal pain, alopecia, anxiety attacks, yeast infections, premenstrual
syndrome, tooth decay and easy and frequent bruising, which caused immeasurable damage to
plaintiff mm- a medically documented 14+ year period. Several hundred milligrams of copper a

O

year can eamly be absorbed from a copper IUD. Although, the lUD was removed over three

U
<L>

years, plaintiff still suffers from the metabolic effects of these same symptoms.

BCD

first cause oar Action

J-i

a,
a
co

Negligence

<

{Consumer Product Safety Act - 15 U.S.C. 2072)
16.

O

Plaintiff re-aDeges and incorporates all preceding paragraphs as though fuOy set forth in

<3>

x2
P->

the cause of action.
17.

ti
S3

X>

Subsidiary had a duty to use the care of an expert in all aspects of the design, testing,

Ti

<D

>

manufacturing, landing, promotion, distribution and sale of the Cu-7 to ensure the safety of
the product.and to ensure that the consuming public, inchiding plaintiff, obtained accurate

<D
O
<D
s-

infim motion regarding hnth the safety and characteristics of the Cu-7. Special care in the

c
CD

exercise of these duties is especially required Of the manufacturer of a pharmaceutical product

S3
O

such as a Cu-7, designed to have an effect on the normal functioning of the human body, and

a

B

o

where the defects and dangers in the product cannot reasonably be discovered by person such
as SASCHA HENDERSON, denied access to specialized knowledge and expertise possessed by
defendant’s subsidiary.
-4-

Exhibit C - 025

App-33
* -a

m *
J-

4254W. 6** Sin**, Unft #A
EigteWbod,CA 90302
310.673.1604
JaTKiayl4,20£)2
V» FACSTMTtP

GDSearie&Go.

PaSoite it Need Foundation
S20Q Old Orchard Rd.
SfcokJ^IL60077
Dear Sr or Madam;
IFynidorit mind I would Ghe to cUtto the chaste, last Ihusdzy, ntfe getting an
utoKomd, tt was hiw#d to
Iliad a Copper 7 Inside me. That's not so
however, I was under the impress®* ft had fafiefl out between 14-16
aged My
Question Is what heafth tsues should I be awse of tmder toe dmmmstanoeS?
It was hittaffy inserted after I had rnrdiDd who b now 17 years old. rmnotsifierflifc
ptocedure was done wfthtn the first year of birth ora year tafer. I am eorifKfent hdweSer, my
<**• was no more than three years of age when ft was done, (voice the 14-16 yea- reference
ahwe. I <&d not rant any more chldren at that tine, so I opted forties pregnancy premnSon
“~J * toid that there are tines the instrument may fal out so, f tor some reason Ino
longer feel the'siring*', that is an indication that ft was no longer nserted. Once the strmg could
n« be toft, I beSewed ft had fetor out and data* think about ft anymore. Shortly after, t became
a Chrfstfen and did not have the need tor sriy birth control method. Iharehade&Hfttatknsand
a prior utiasogmd to toe one last Thursday, none ofwtitt detected Is* presence hiny body. 1
toH at the doctor's office the hstnanent should be changed erery three years. So for, I
have not found anything that substantiates that statement. Shoe tty doctor's vfe* ted Thursday
I have been actfrety searching the Internet to find out as much information as I can about the *
Copper 7. lfixindinfbrriiafiohabouttewilfi*aw^frt>mthematetatidtheemstenceofartwl
case against your company regarding women in Australia who damvthey are infertile as a resu*
of Copper 7 usage. I am toSy aware toatl should not have had this mstnimattfcBWe me
coreistentfy al this timev but I didnft trow it was there. lean say wthgreateeffekiy tint under
the circumstances I accredit my current health status to trusting ii the Lord as a Christen. "
"nwe are some things (such as an irapfetwl recurrtno heatbehe. dug^Kes), teat may be attrlKterf to
the eostenge of the Copper 7 made me, but it has yet to be determined. I hare made an
appointment to have t remove tomorrow. I have recently married and my iasfaax] and I
anUopate oonoeiving a chid once Rs removed. I don't know fthe claims ofthe other women in
Australa are correct, butwewlf find out as soon as we can.
We wmid appreciate any MbmuUon you can gtre us reganhng the Copper 7 and
affeefespyge can have B: for fiaurer^sfehce. Iftankyou very modi for your aAtendohtothte
Stoewayymih^
CdgnaturelMScated by fox]
Sasdta Henderson

2
O

U

0)

6
©
*-»

Clf

CO

<

u

©

5

>»

X5

*8>
©

o
©
*-»

G

©

BG
o

o

p

App-34

•

From:
To:

Page 1 of 1

"UWNSK1, JOHN B [AG/10001* <john.b.winski@monsanto.com>
<Chenantah@Joimail.com>
Tuesday, May It, 2004 8:03 AM
Email to Monsanto Company

Dear Ms. Henderson:

This is in response to your email message dated May 8,2004. I regret to hear of your
situation, however, I believe you should contact Pfizer Corporation, rather than Monsanto
Company, regarding your conqems.

,
^

Prior to September 1,1397, a corporation that was then known as Monsanto Company (the
’-Former Monsanto Company") operated an agricultural products business, a pharmaceuticals
and nutrition business, aid a chemical products business. The Former Monsanto Company
today is known as Pharmacia Corporation. Pharmacia is a wholly-owned subsidiary of Pfizer
Corporation, which together with its subsidiaries operates the pharmaceuticals bustness of the
Former Monsanto Company. It has the responsibility for claims such as yours. Our company,
the current Monsanto Company, was incorporated in February 20X3, rs a supplier of ^
agricultural products and solutions, and had nothing to do with the manufacture or sale cif the
Cooper 7 product.
I wish you ail the best and hope that this information is helpful to you.

ci
<L>

CL,

<

s

Sincerely,
John Winski
Corporate Counsel

3

t

O

o

p

App-35
1

The relevant analysis for claim pr£$usKm\Iwhat Plaintiff previously alleged, because that

2

Indicates what primary right was adjudicated. Boeken, 48 Cal. 4th at 798-99. hi die prior actions,

3

Plaintiff alleged “sustained residual effects” from tire Cu-7, that were allegedly continuing, arid that

4

she suffered “permanent injuries” as a result of the Cu-7 being embedded. (Exhibit G, supra)

5

“Whether or not that was factually true, that was the cause of action that she brought..., and she

6

cannot now litigate the same cause of action a second time.” Boeken, supra at 799.

7

‘The general rule is that a tort plaintiff may recover prospective damages, as long as it is

8

sufficiently certain that the detriment will occur,” which includes compensation for prospective losses.

9

Id. Pecans**- Plaintiff alleged continuing and permanent injuries that are tire same as the injuries alleged

10

in the present action, she is improperly asserting the same primary right. See id. stfiQQ; see also Cahin

11

v. Thayer, 150 Cal. App. 2d 610, 616 (1957) (“JP)laintiffs argue that they have one cause of action

12

for the injuries which they considered to be temporary and another cause of action for the permanent

13

injuries. The argument has no support in reason or authority. [Plaintiffs] had ... a single cause of

14

action for his or her damages. Any recovery would have included compensation for damages sustained

15

to tire time of trial and also for future detriment that could b<

16

consequence of the injury”).

3S-

17

Second, the same parties or parties in privity to the same parties in Lynch 1 were involved in

18

both Lynch I and II. DKN Holdings, supra (noting that second element of claim preclusion can also

19

be satisfied by a second suit between parlies in privity to tire same parties in the first suit). This

20

element of claim preclusion is still satisfied as to Monsanto and Dr. Chao because they are in privity

21

to Pfizer. Dr. Chao is a farmer employee of Pfizer and is being sued by the Plaintiff for his alleged

22

role in causing her injuries during his employment at Pfizer. While Monsanto is no longer a part of

23

Pfizer, it was the prior parent company of the Pfizer predecessor-in-interest that marketed and

24

developed the Cu-7. Monsanto’s human pharmaceutical assets and responsibilities, which previously

25

had responsibility for the Cu-7. remained with Pfizer even after it was spun-off in 2016.

26

Third, the prior actions resulted in final judgments on tire merits. The Ninth Circuit affirmed

27

the trial court’s summary judgment in tire lynch 7, and affirmed tire trial court’s dismissal in lynch

28
7

DEMURRER TO FIRST AMENDED COMPLAINT
415062V2

App-36
1

DEMURRER TO FIRST AMENDED COMPLAINT

2

Defendants Pfizer, Monsanto, and Dr. Chao demur generally to Plaintiff Sascha Lynn’s

3 11 complaint on the following grounds:
4

Demurrer to First Cause of Action (“Negligenre-ProHnCl Liability”)

5

1.

Plaintiffs First cause of action fails to state a viable cause of action against Pfizer,

6 || Monsanto, and Dr. Chao. (C.CJP. § 430.10(e)).
7
8

Demurrer to Second Cause of Action (“Strict Products linhiKtvn
2.

Plaintiffs Second cause of action fails to state a viable cause of action against Pfizer,

9 || Monsanto, and Dr. Chao. (C.CJP. § 430.10(e)).
10
11

Demurrer to Third Cause of Action (“Fraudulent Concgalmput”)
3.

Plaintiff’s Third cause of addon fails to state a viable cause of action against Pfizer,

12 || Monsanto, and Dr. Chao. (C.CJP. § 430.10(e)).
13
14

Demurrer to Fourth Cause of Action (“Negligence Misrppmspntation”)
4.

Plaintiffs Fourth cause of action fails to state a viable cause of action against Pfizer,

15 || Monsanto, and Dr. Chao. (C.CP. § 430.10(e)).
16
17

Demurrer to Fifth Cause of Action f“Infpntinwal
5.

Plaintiffs Filth cause of action fails to state a viable cause of action against Pfizer,

18 11 Monsanto, and Dr. Chao. (C.C.P. § 430.10(e)).
19
20

Demurrer to Sixth Cause of Action (“Violation of Easiness ami Pmfaednus Code”!
6.

Plaintiff s Sixth cause of action fails to stale a viable cause of action against Pfizer,

21 11 Monsanto, and Dr. Chao. (C.C.P. § 430.10(e)).
22
23

Demurrer to Seventh Cause of Action (“Breach of Imnliprf Warranty”)
7.

Plaintiff s Seventh cause of action fails to state a viable cause of action against Pfizer,

24 11 Monsanto, and Dr. Chao. (C.C.P. § 430.10(e)).
25
26

Demurrer to Eighth Cause of Action (“Intentional Infliction of Emotional Distress”)
8.

Plaintiff s Eighth cause of action fails to state a viable cause of action against Pfizer,

27 11 Monsanto, and Dr. Chao. (C.C.P. § 430.10(e)).
28
iii
DEMURRER TO FIRST AMENDED COMPLAINT

\

415062 V2

- v_
App-37

r

r«QB!r :*

■e^ckt

.Append,ix J

i*mik

rtn»l

MBOS,SKSC8»
aoa, oc/2^/1^5*

*S*: S4

CT-UBBT

GESDEK: F
i^ciio* «KWMwra«
SPECISW:
RB)ClSmCS:M
lab REF HO: W
C014JSCTSO:

10/06/2®°*

RECEIVED:
REfOETHD--

10/06/2°°°
lC/iI/2C°*

Toot

W:S1
21s8i
«-.3»

fKffiOUCT SSBORI

TISSOB, 2 SBCBiaB
TISSUE. SPBCIHEH *
A SOURCE

esdocerwi*

- is rwcei’*** >«

A GROSS DESCRIPH®

and id0M£*g2ed M j"".7HMue ist**"***4 »«“
oonslsts of £**tT. tix 0.6 * #•*
.

A DIAGNOSIS

tissue.

sFBciieai b
B SCORCH
B GROSS 08SCRIW1W

SOUMCOS lg«n*8I.>
OR C3UK3B0HL *

1,rTg , ___

-SBGKTXVB FOR W8®*81*

anoMmSH

—- ~~ r^-^rh» - ■=“
coaBi®**

.,,, j * o.i «*.

is

•**» ^p*c4'

<*«. cassetted .

entirely sd*1**
tts/*pi________ .
b

oncsrasis

-majnsxRvx
or WUO«««
-brcattve for 81«««®
(All

TISSUE FATHOLOGV

FISH.

report type

CUBICAL ISFO*WAT-<®

iBUS

oia
H V**rS

bl<s*al3‘*

__ ,lna

nenstrual W«edi*>9

fjUK&OGIST
,6***^*
I*'*'

«

- cs“

f
2

-

App-38

mm FtiFFrst
CQUKSELFQRDFTISfc ftxfep
PLTfFPBOSB mAniu,
DfT. PROSE:_____
OWEJJ
BY:

Appendix K
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OP NEW TORE
-X
SASCHA. HENDERSON,
Plaintiff.
v.

ORDER

PFIZER, INC.,
Defendant.
X
BARBARA S. JONES
UNITED STATES DISTRICT JUDGE
Defendant Pfizer, Inc.

("Pfizer") moves pursuant to

Rule 12{fa){€) of the Federal Rules of Civil Procedure
{"Fed.R.Civ. P. *) to dismiss the Amended Complaint of pro se
Plaintiff Sascha Henderson ("Henderson*) for untimeliness.
For the reasons set forth below, the motion is DENIED.
Ms. Henderson moves under 26 U.S.C. § 1404(a) for
transfer of her action to the United States District Court
for the Central District of California.

For the reasons

set forth below, the motion is GRANTED.
Ms. Henderson is now and was at all times relevant a
resident of the state of California.

Pfizer is a Delaware

corporation with its principal place of business at 235
East 42nd Street, New York, New York.

1

This Court has

App-39

diversity jurisdiction of this matter pursuant to 28 U.S.C.
§ 1332.1

Henderson alleges that she was made infertile as the
result of her use of an intrauterine contraceptive device
(the *Cu-7") designed, manufactured, and sold by G.D.
Searle & Co. {•Searle*}, a subsidiary of Pfizer,

Her

complaint, which sounds in products liability, fraud and
negligence, was filed in this district on January 14, 2005.2
BACKGROUND

In her submissions, Henderson alleges as follows: she
began using the Cu-7 in or around 1984; sometime before
1986 she came to believe that the device had fallen out of
her body,- she began to seek medical treatment in 1999 for
vaginal pain; in January 2002 an ultrasound examination
revealed that the Cu-7 was still presenton January 14,
2002, Henderson wrote to Searle seeking information as to

1
in Iter Amended Complaint, at 1 7, Henderson states that alie
eiajma damages in excess of $75,000, the second jurisdictional
requirement under 28 U.S.C. S 1332. nowhere does she otherwise specify
the amrami- ©f her claim. However, Pfizer does not contest this point
and the Court accepts it as true, following the admonition of Haines v.
JCerner, 404 U.S. 519, 520 (per curiam) (19721 (pro se pleadings are to
be ~ (held] to less stringent standards than formal pleadings drafted by
lawyers.").
a'
Henderson filed her first complaint against Pfizer in the

Superior court of California for the County of Uw Angeles, central
District, in November 2004 (appended as Kx. A to the Declaration of
James Arden, counsel for Pfizer) . That action was removed by Pfizer to
the united States District Court for the Central District of California
in December 2004. Henderson then withdrew that complaint under
Fed.R.Civ.P. 41(a), and filed essentially the earn complaint in this
district.

2

App-40

possible health effects of the Cu-7's long-term presence in
her body, but she received no reply to her letter; she had
surgery to remove it on March 20, 2002, after which her
surgeon advised her and her husband to "go make babies";
she continued to experience pain and was unable to
conceive; on June 2, 2003, she was advised by her surgeon
that "erosion* caused by the Cu-7 had rendered her
infertile.

All of Henderson's medical treatment occurred

in California.
THB STANDARD FOR DISMISSAL OKDKR RULE 12 (b) (6)
While a statute-of-limitations defense may be raised
in a motion to dismiss under Fed.R.Civ.P. 12(b) (6) , such a
motion should not be granted "unless it appears beyond
doubt that the plaintiff can prove no set of facts in
support of his claim which would entitle him to relief."
Ortiz v. Cornetts, 867 F.2d 146, 148 (2d Cir. 1989}
(quoting Abdul-Alim Amis v. Universal Life Insurance Co.,

706 F.2d 638, 640 (Sth Cir. 1983)); see also Conley v.
Gibson, 355 U.S. 41, 45-46 (1957).

The court must take all

the facts alleged in the complaint as true and draw all
reasonable inferences in favor of the plaintiff.

See

Jackson Nat:' 1 Life Ins. Co. v. Merrill Lynch & Co., 32 F.3d
697, 699-700 (2d Cir. 1994).

3

App-41

Although a court is ordinarily expected to look only
to the four comers of the conplaint to evaluate a
plaintiff's allegations, see Fed. R. Civ. P. 12(b)(6) and
Cortec Indus., Inc. v. Sum Holdings L.P., 949 F.2d 42, 47
(2d Cir. 1991), a pro se litigant is entitled to more
latitude.

See Gill v. Mooney, 824 F.2d 192, 195 <2d Cir.

1987) (considering pro se plaintiff's opposition papers in
addition to the complaint); Lucas v. New York City, 842
F.Supp. 101, 104 (S.D.N.Y. 1994) (same):

Thus, on the

instant motion, all materials Henderson submitted have been
considered as part of her complaint.

Moreover, a pro se

litigant's submissions must be "interpret fed) ... to
raise the strongest arguments that they suggest.*

Soto v.

Walker, 44 F.3d 169, 173 (2d Cir. 1995), and the Court has
done that here.
PISCPSSION
Pfizer's Motion to Dismiss
The parties do not dispute that Hew York law governs
this action and that Stew York's "borrowing statute,* CPLR §
202, requires the Court to apply the shorter of the
statutes of limitations of New York ami California, the
state where the cause of action accrued-3

CPUS 5 202,- see

3
The applicable statute of 1 imitations under Sew Toxic law,
C.P.L.H. S 23.4(c)(2), is 3 years; therefore the shorter California

statute applies.
4

App-42
also Overall v. Estate of Klotz. 52 F.3d 398, 402 (2d cir.
1995),
Of course, when a statute of limitations expires on a
claim depends first on when that claim accrued,

Pfizer

argues that Henderson's submissions show that her cause of
action accrued *at the latest on March 20, 2002,' the date
of her surgery.

Pfizer Memo at 9 (emphasis in original).

Assuming that to be the accrual date, Henderson had two
years or until March 20, 2004 to file under Section 335.1

of the California Code of Civil Procedure ("Section
335.1*).4

But her complaint was not filed until almost ten

months after March 20, 2004.

Therefore, under that reading

of her complaint (which Pfizer contends is the most
generous possible), her complaint of January 14, 2005 is
t ime -barred.
In its Memorandum of law <-Pfizer Memo'), Pfizer argues that
Henderson's action is barred by the one-year limitation of former
Section 340(3} of the California Code of Civil Procedure ("Section
340(3)"), noting that the Section -has specifically been held
applicable to personal injury claims brought against an 1UD
manufacturer.* Pfizer Memo, at 8 (citing Rose v. Fife, 255 Cal. Sptr.
440, 446, 207 Cal. App. 3d 760, 770 (1989)).
The California Code was revised, effective January 1, 2003. to
substitute a two-year period for personal injury actions. See Section
335.lj see also Maldonado v. Harris, 370 P.3d 945, 954-55 (9th Cir
2004). But Pfizer argues that, because the longer period does not
apply retroactively to claims already barred under Section 340(3) ,
Henderson cannot here take advantage of the revision.
California caselaw, however, explains that plaintiffs whose
claims had not yet expired when the new statute of limitations went
into effect can avail themselves of that longer period. See Kiss v.
City of Santa Clara, Mo. C-04-01964. 2004 Mb 2075444, at *1-2 (M.D.
Cal. Sept . 15, 2004). Thus, if Henderson's claim had accrued on March

5

App-43

Henderson contends that her cause of action did not
accrue until June 2, 2003, and that therefore her claim of
January 14, 2005 is not barred.

Henderson chooses June 2,

2003 because, she alleges, it was on that date that her
doctor informed her that she would be unable to conceive.
and until then she was unaware of any injury from the Cu-7.
Henderson thus attempts to invoke California's discovery

rule, which provides that *the accrual date of a cause of
action is delayed until the plaintiff is aware of her
injury and its negligent cause."

Hopkins v. Dow Coming

Carp., 33 F.3d 1116, 1120 (9th Cxr. 1994)

(citing Jolly v.

Eli Lilly & Co., 44 Cal.3d 1103, 245 Cal. Rptr. 658, 66062,

751 f>.2d 923,

926-27

{1988}).

Here, Henderson explicitly pleads that she was
unaware of her injury - the erosion of her uterus and
the resultant infertility caused by the Cu-7 - until
she was informed of it by her doctor on June 2, 2003.
Whether this is true is a question of fact which
cannot be resolved at this stage of the proceedings.5

20, 2002, it would not have expired by January X, 2003 and aha would
have the benefit of the longer period.
5
Pfizer Bikes much of a letter Henderson note to Searle on
January 14, 2002, inquiring about possible health effects of the long­
term presence of the Cu-7 in her body. See better, appended as Exhibit
A to Amended Qaplaint. According to Pfizer, the letter ronnini
admissions that at least as of January 14 , 2002, Henderson suspected or

had ample reason to suspect that the Cu-7 was the cause of her
6

App-44
\ \

W

See Barrett v. United States, €69 F.2d 324, 333 (2d
Cix. 1982) (detenniitiog that accrual of claim must
await resolution at trial where plaintiffs “raised
factual issues concerning whether or not they had
reason to know of----injuries”) ; D'Angelo v. City of
Hew York, 929 F.Supp. 129, 132 (S.D-H-Y. 1996) (“Since
a rational jury could conclude that plaintiff could

not have reasonably been aware of [his] claim {within
the statutory period], defendants* motion (to dismiss
action as time-barred] must be denied.*} .
Taking all the facts Henderson alleges as true
and drawing all reasonable inferences in her favor as
I must under the standard discussed above, see Jackson
Nat'l Life, 32 F.3d at 699-700, I find that Henderson
has stated a complaint sufficient to defeat Pflaser's
motion to dismiss.
H«nderaon * s Wotion to Transfer
In a submission dated Hay 26, 2005 and styled as
a Motion to Remand, Henderson moves this Court
difficulties in conceiving, and that those difficulties might be
permanent.
Pfizer argues that, under California precedent, such suspicions
would he enough to start the running of the limitations clock, and that
therefore the statute expired on Hend*r*on'• claim on January 14, 2004.
precisely one year before she filed her complaint in this Court. Thus.
Pfizer claims, Henderson* m claim Must be di smlssed as a
ttter of law.
This Court disagrees. As discussed in the text above,
Henderson's knowledge or awareness of her injury remains a question of

face, despite the letter.
7

C: se 2:15-CV-09518-PSG-RAO Documef?£*!~^Piled 12/09/15 Page 1 of 20 Page ID
Appendix L

.

, . . PILSy

l
2
3
4

Sascha Lynch
P.0. Box 1424
Inglewood, CA 90308
Tel: (424) 644-3062

?015 OtC -9 PH 4:02

In Pro Per

5
6
7
■ h..

8

9
10

UNITED STATES DISTRICT COURT

u

FOR THE CENTRAL DISTRICT OF CALIFORNIA

12
13
14

SASCHA LYNCH,
Plaintiff,

15

CVl5-09518PSG(HAOri

Case No.:

COMPLAINT FOR DAMAGES AND
DEMAND FOR JURY TRIAL

16
17

PFIZER INC.,
Defendant

18
19
20

PLAINTIFF, SASCHA LYNCH, for causes of actum against defendant, PFIZER, INC.,
state and allege as follows:

21

INTRODUCTION
(Factual Background)

22
23

1.

Plaintiff SASCHA LYNCH (hereinafter referred to as “Plaintiff) is a citizen and

24
25
26
27
28

resident of the State of California.
2.

Defendant PFIZER INC. (hereinafter referred to as “Pfizer”) is, and at all times

herein mentioned is, a corporation organized and existing under the laws of the State of
Delaware and qualified to do business in California, with its principle place of business at 235

PLAINTIFF SASCHA LYNCH’S COMPLAINT FOR DAMAGES AND DEMAND FOR JURY TRIAL - 1

C ise 2:15-CV-09518-PSG-RAO

i
2

17.

DocumenFx'^Hied 12/09/15

Page 7 of 20 Page fD #:

I

After being referred September 2013 to LAC+USC Medical Center from die

Claude H. Hudson Clinic, plaintiff underwent an ultrasound transvaginal exam December 23,

3

2013. Hie results of a thickened endometrium led to die following procedures to be performed
4
5

on plaintiff December 29,2013:1) Colposcopy of Cervix/Vagina/Vulva with Possible Biopsy, 2)

6

Biopsy of Endocervix (tissue inside cervix), 3) Biopsy of the Endometrium (the lining of the

7

uterus), and 4) Surgical Site(S) / Anatomical Specification; cervix. The results showed die

8

discovery of “multiple fragments of dark brown soft tissue.” Plaintiff was called into die office

9
10

n

for follow-up January 6,2014, and was told then she had endometrial cancer.
18.

Plaintiff was informed she had endometrial cancer, which necessitated a total

12

hysterectomy with the removal of her uterus, cervix, ovaries and fallopian tubes. An emphasized

13

course of action for surgery was to take place “within two weeks” from the diagnosis, all of

14

which was devastating to plaintiff. She ultimately went into a depression, because of the

15
16

physical and emotional trauma she suffered as a result of the injury caused the Cu-7. Surgery

17

was delayed due to plaintiffs transfer to Kaiser Permanente, but on March 5,2014, the

18

hysterectomy was performed. Plaintiff was out of work to recover for approximately two weeks.

19

Since the surgery] plaintiff went in search of the facts of the cause of her diagnosis so she

20

compiled her medical history where a distinct pattern emerged, clearly pointing to Searle’s Cu-7
21
22

intrauterine prescription drug causing die repeated diagnosis of cell abnormalities, masses, cysts

23

(before and after the IUD removal) and other damaged tissue, noted throughout plaintiff’s

24

medical history ultimately leading to the diagnosis of endometrial cancer identified in Paragraph

25

17 above. The cancerous cells were located on the right side where the Cu-7 had been embedded

26

in plaintiff’s myometrium with the IUD partially showing in the endometrial cavity for
27
28

approximately 17+ years. Plaintiff seeks redress from defendant for her injury.

PLAINTIFF SASCHA LYNCH’S COMPLAINT FOR DAMAGES AND DEMAND FOR JURY TRIAL - 7

App-47

*

S

■

-; ■
♦

r

,i

r*

. Vr V - I

.r- ;

k.
lEHDSEARLEClASE
> lAty'SUITS
ITSEYESTOAHEALTHHAZARD?
CLAIM 1TJS5E141NGAN HID THAT CAUSES WCllON AND STERILITY
*

.V

c

4
*>**.-

5

‘

-. '■■be stories'are depressiriglyfamfl- S lar. They STC told, iu CCUrte ill STK*
• ■ the G, S„ by women whoseueSdes
■ arc- scarred and whosfrhopes. of having
chitdreri are dcitefti But their stories
k * rhare rafting, to do .with the Daikon
Sfiidd suits that filled'the courts for
year?, and finally drove A.H. Rubba Co.
into Chapter H, These women me seek­
ing damages from G. D. Searle & CO, for
: promoting a product they say left them
infertile. Unnoticed, a new prodnet-Eabih
ity battle is under way. It could cost
,
.
.i .Searle millions.
- . Searlft’s Copper 7, now the most wide­
ly used intrauterine contraceptive hr the
U.S^ could'become its BaRtow Stneifk
c, Already, hundreds of Suits charge, that
; thcCopper 7 Waists pelvic infection end
infertility and that its design subjects'
users to unusual risfa.. Bays ftetrfeiaJo
Stone, a Denver lawyer who is teustfehg
Copper 7 eases: *f would'ta» the worldto stop thinking that Bus is*, a safe IUD.”
'danger signs. There.is a-growmg ease
against the Copper. 7. Court records, in•tervfews, andrntenjal Seariedoaimetiis
obtained by CTKNESS «EEK paint a
* i
tare of a company that.avoided looking,
• ,• n for signs of danger m its product and,
‘

.

x

vy.

}

*'A

,-V

; V

j>‘- • •
■

f,

*.

v- >

••* -■

/

t

v. ,

____
$ ‘
. jBSL
5*jPM
es|Bj[K,i/y

•,* .• . ?.
* r^.A .

-sa sawysrit* *&&&&&& •

« ,
i

.* f

Ii

'1'

path to dominance m its market despite.
stfltunresolved uuestions about possdde
harmful effects.
As lawsuits mount, Searier-ahd its
new corporate parent, Monsanto Co.—
are likely to Cad themselves ih a major
health controversy. More than 1 miffion
; women in thelh S. are using the. Griper
7, and iibIBors.more-have used it. worth
■'wide since it was introduced in 1974. At
■least 742 suits have been fifed; and the
'number is rismg, That may help explain
the Searle family’s decision last year to
'sell the ewrpauy..
,
'
.Thus Ear, it has not been easy for
Copper? users to win to court, although,
one jury bit Scute with, a $&C£3C y«_«&*. Lawyers: rsty Searle has^ won three
trials and lost, two. But -an*intensified
legal effort aggrrtt Searle is just begin-'
ning. Three combined trials, involving
dozens of chute, are scheduled in the*

' t^OBUSCIWWHWOO^C»S^1<»99S,^

:^

rtfvW*
A

^

i-

.

■
«■
xx am tin
»

.

___________

next 12 ttpoths. One starts next month
in -BaRimore. Sayfc Roger P. Brasnatan,.
a.Mnmeappfe laWyer- who' will fhee
Searle in court Uis spring: "We wiD
have a ease that will, tefl tlra fnQ story,
turd that WS1 be a harbinger of -what b
to epme for Searle."
Neither Searle nor Monsanto, which
.completed its $27 bflHon aopri^ljon of
Searle on Oct. 1, would tfsenss the Cop­
per T suite or their Ewanml
Tod R. RuEm, SeaHete ricepnzxfent
far pharmaceuticals, said the company
would not answer-nttsiXESS w&ek's
questions. Instead, Hultra, read a cafeparagraph statemort that said the prod-

| net was m^tbvwd by the Food &J)rag
Auururiareiggt. oearic bcceves," lluliiii
oontfrrrffd, that the Copper 7 "is safe
end effective...."
Trteates start; the Daikon Shield and the Copper 7 were aimed at the same
market. They arrived just as the now
freedoms of the sexual revolution were
changing traditional mores and the first
truly revciatkmary contraceptive, the
p3( was itumsrg into trouble. Reports of
heart attacks and strokes were sending
worsen in sscrcb of safer alternatives.
IUD3 had been around for years, and
two ether companies were already sucwdrrg in the U. S. market. For Robins
sadSearte, the hmfnrvs opportunity was '
irresistible. In 1971, jost months after
Robsas had obtained r^hts to its iU-fatcd
IUD from tiny Daikon CotfL, Searle
bought the Copper 7 from As inventor.
Dr. Jaira? Zipper, a Chilean physician.
kipper's devise was a small piece of
plastic about as wide as a thumb and as
thin as & pisee of cardboard. Shaped Eke
the number 7, it had a small thread of
eopper wound around the vertical ann.
Even today, the exact method by which
any fUD works isn't known. But most
experts agree that copper tuns stimulate
a reaction that inhibits fertilization.
ON noun. That xrnaK hH of copper shaped
the future of both the Daikon Shield and
the. Copper 7. The ttu did cal require
the Shield, made entirely of plastic, to be
tested. It bit the market quickly, won
nameuac popularity among women, and,
just as rapidly, drew their wrath as tales
of dccsse, infertility, and even death
forced ft off the cartel less than four
years later.
Because it contained copper, which
would cause a chemical reaction, the n»A
classified Zipper's invention as a drag
that would be subject to the full approv­
al. process. Copper 7 marketing (dais
mere sat on bold_______________
The first step in the kmg fda process
was animal experiments. Quickly, a red
flagappearcd. Litton Brandies, an inde­
pendent laboratory, had been hired to
test devices Bee the Copper 7 in monkeys. Robert E. Barer, an expert witness
far the plaintiffs, is one of the few peo­
ple who has seen Litton'® original report
to Searle. Baier, a biophysical sciences

^

•v
>1

T

!
i
1

t

'

‘

Ij

!

£

3

App-48

1
':r

*»

V . •

I '

p^aap

!
:

as

sAsxnmwuxs

,*^^"Z^^sessr

I <isszs(£&*~2£5g£»££.

.)

}rug
u)!:n
safe

r.-

[j

and
tame ‘

k*

the

Is of
ding
es." .

I:*
»

l

ated
arle.
itbr,
in.
2 Of

■4

d as
like
i of.
urn.
hich
nost

if

late
tped
and
uire

> be
won
ind.
tics
9th
bur
lich •
DA

rug
•ovans.
ess
red
dc-

to
oness
eoort
:cs
:A«S

l
1

. •*»»=--

r-v - • •"

' *- ‘

new
were
-first -

sue-'
bins
was
liter

professor, beads the Health Gaie Itistruments & Devices'Institute at the State • t2
University of New York SONY), Buffalo.
-- Baier says Litton’s report revealed ; .
•- *
that.some of the-teit monkeys’ pells had
"premaligrtant transformations/’ indica­
.VW»'i
tions that cancer might have'developed
from the the copper implants. Searie
wrote to Litton, Baier says, suggesting
language that would soften, the impact
of the findings." The Searle language
!’{•
gf S'c*c¥
.ra tvot
^ in
was in the final- report toJ the fda.
“What I saw [in Litton’s original re­
e"*!1* £*•
cS cr1to. a«l*ted
both
port!" says Baier, "wis language that
indicated the ceBs were badly bent out'
*-*
of shape. Ihe feail;rersk;n said Use cells
were modified, but not badly bent out of shape. Cells that are, badly bent out of
A .•
■-{ pet*6»»Vs?*->»-* Wf'
sliape can be a sign .of malignancy. So
instead of sounding the problem, alarm,
they backed off."
'
human ronM. Searie, according to the
mg. The Copper 7 “approaches the ideal ries. Pot nowhere on Searie’s form was
PDA, had a habit of not sounding ,the' contraceptive," Searie told the FDA after there a space a doctor could check if a
problem alarm. In 1976 the agency ap­ _ it had tested more than 16,000 women. It patient participating in the clinical trials
pointed a task force to .investigate ' was'an impressively large clinical sam­ had pid. In pretrial proceedings, Searie’s
SearleV animal testing from 1968 to ple. Hie -results were impressive, too. lawyers have suggested that pid was too
1976. Searie had given the PDA informa­ But they may have been misleading.
vague a term to have been meaningful
tion “in a manner likely to ohscure prob- - At' the pda, one statistic must have But Roger L. Pardieck, a Seymour (Ind.)
lems," the ‘task force found. The PDA been particularly. persuasive. It con­ lawyer who has been working on Copper
relies on safety data submitted by com­ cerned the low incidence of pelvic in­ 7 cases for years, charges that Searie
panies. After its stadv. the task force flammatory disease (PtD) in Copper 7 us­ simply "didn’t want to know” what the
nwidmlwt **f)nr hnwUftlinn clearly ers. The main cause of infertility in rate really was.
fjpmftftfffantiK that in th» fl H fsoarlo women, pro was already known to be
Plaintiffs' lawyers have hired Miriam
Co. we have no basis- for such reliance 1 one of the'major complications of IUDK - Orleans, an epidemiologist at the Univer­
now. " The task force recommended that Searie reported a PID rate of only 2.02 sity oCCok>rado School of Medicine, to
grand jury proceedings be instituted "to cases per year per lOOusers. The compa­ - evaluate the PID reports. Recently, Or­
Identify1 more particularly the nature of ny also pointed out'to the pda that some leans reviewed 10> of the original files.
the violations....” Searie was never fUDs had unacceptably high rates of as She studied the Dotations made by par­
-prosecuted. The Copper 7; already on the .much as 1JSI.
ticipants’ doctors to determine if there
market at the-time, was one of the prod­
The-Copper 7'looked Eke a.winner. were symptoms of pid. Orleans conclud­
ucts covered by the pda study.
But exactly how Searie settled on its pid ed that the PID rate in the original test
Meanwhile, once animal testing was rate is a question the company is likely may actually have been as high as 6.6,
over, Searie proceeded with human test to spend years trying to explain to ju­ quite dose to that unacceptably high
7JSh Searie's doctors have published a.
• ;
recompotation that confirms a low infec­
MB •» IS ...JWf SKAMFS MAMET .
tion rate.
Once Searie won pda approval in 1974,
SlUftSW...
its marketing department geared up,
racHfTor &s.*ONDi KKEHTMtUOs
Oftsrra/
and its salesmen went to work. Pour
rests comuarmESmo*■
' SOW NOS.,MADE
UMSM1SKMK
months later, Robins’ decision to take
OSftUOs
__irsaiu
the Daikon Shield off the market was a
bonanza. Searie, encouraged hv brisk
sales, began an aggressive marketing
campaign that often understated the
dangers of lOD use.
Signs of trouble came quickly. Eigh­
teen months after sate began, for ex­
ample, Searie’s medical department re­
ceived a letter from & 27-ycar-old nurse
who wrote that she hau read the avail­
able Eterature before selecting the Cop­
per 7. It hadn't prepared her for the
severe pelvic infection she contracted.
She said she had since semi other cases
of . Copper 7-vel*ted Pin in her work
The nurse wrote that she was looking
at a two-page Copper 7 ad from a medi­
cal jowmaL Itesotawed, under the head­
ing “adverse reactions," the following
Unexplained statement: “Uncommonly.
.* r-*- ’

' J

mid’.

■

i

LEGAL AFfMRS

BUSINESS tt@i. OCTOBER U. 1985121

%*
z

»
*

2

App-49

.-■■

pehric infections hatte becn.-.’rtpo^^

a marketing advantnra. The small sire
of the Copper7 gives Searie a competi­
tive edge. A millnmroos woman—one
who Kas-uot vet had a child—almost al­
ways has a smaller uterus than a woroah who hag pwn birth.
CCWCT vs. plastic. From its earliest
marketing efforts, the small inserter
barrel—and the Conner 7 itself—has en­
abled Searie to encourage sales to such
women. Its salesmen explained the hrawv
fits of the product for nulliparous wom­
en, and {ts advertising declared that the
i s» |M)«cucaf uucaicce ns sfitati
and- "may be inserted with ease even
into the uterus of virtually any normal
nuIDparous woman."
Today, many medical experts say
most nulliparous women should not be
. ■ ■.
1
T:
'
’---------- ---using tuns at all. The New England
!*
Journal of Medicine- recently published
two studies in which copper IIIlls fared
Robins Drikon Shfeid and Searte's G*s>er7.are boki r*trau1orir» conVacoplfret. Utgoaon
better than plastic ones in their ill)
■nuofchgtfie'Oaftori SKafcti howover. hae forced ftobira cto Chap^ 11.StanfiWcb*ns
rates. An accompanying editorial, liowInvobwigma Copper 7 are growing fast Ho onoknows how'much they WWairtolyeoft.
ever, concluded that it new appears
~
,—T
~
■
■ /utRouM'
.
v
1
~—““—
"priident” for a nulliparous woman to
ts. a Sak s
tottnSMekl
C<wr7
use an Hit) only if she is warned of the
. Rights acquired
1070
iecnensed risk of infertility “or if she
-1971
Snles begin' ~
does not wish ever to conceive **
1071
. .1074 '
FDA action >
Searlc’s promotional efforts paid off.
Molests ragged
ApprovodinlffitiaABrreqiWBdtogarig
Within two years after it was intro­
-Current status
Withdrawn ;iomm«tet1974
SW sold; most popUavlUDriU- S.
duced, the Copper 7 had more than 30?
Domestic sales
Z^mftonunio
V
.
4mgonunte‘
of the market Within a decade, by most
Suits resolved'
~}9230
estimates,- it had almost 90?. But as
107
Pending wits
Soarie’s sales have been increasing, so
5,100
' 605
has medical criticism of iu» use in nullip­
Litigation costs
OvcrSI.1 Won
arous women.
/.
- , DATA«¥•
Eleven years after:the Copper 7 came
on
market questions about its afeattempt to make chunks which are not flaw" in-the device. It can cause severe ty. the
remain. Among them: What effect
.FDA approved.”
pain, possibly' infection, and may result does copper have on the body? Searlc’s
O’Brien didn’t seem to bold out much- in-hospitalization.
scientists say it is a needed trace ele­
hope, however, that his concern^-. would , The.most worrisome complication is- ment and causes no harm in small quan­
stop - the misrepresentations.- “Because that a doctor cari misinterpret what hias tities. One of SeaHe’s experts, Gerald
of'personal reasons,” he wrote, ”1 do not actually happened in a patient- because Ostcr, a biophysics professor at tfount
consent to have my name used in any. of the- string problem. A -lengthened Sinu'School of Medicine in New York,
press release-or in. connectkin with any string, Hatcher says, eaa be interpreted testified in a pretrial hearing that there
press release. In addition, I Will not par­ as a harmless straightening of the have been no reports of deleterious ef­
ticipate in any press conferences.”
string. In fact, the Copper 7 may have fects despite use of copper mils by mil­
Whatever misgivings O’Brien had, he become dislodged, if so, pregnancy can lions of women. Said Oster The fact is,
remained at Searie for 10 years. But just result. Spontaneous abortion under and this is what they call the bottom
as he was summoned to testify recently, thpse .rircumstances is common, find a Sne, nobody I know suffers from any
’he took a new'job with Wyeth Laborato­ woman who has a spontaneous abortion <*>pper toxic effects by virtue of wearing
ries. Reached there and asked about his with an IUD in-place runs a significant a copper tun. No cancer is reported.”
criticisms of the marketing efforts, risk of death. .
That assurance may not make Cop­
O’Brien would say only: "What I wrote,
Hatcher has been writing to Searie per 7 users rest easy, suny’s Dr. Baicr
1 wrote. I can’t deny that"
about the tail-string for eight years. In says copper, at the least, causes inflam­
■cajoa Rstt* There was, it seems, little 1975 the company marketed another cop­ mation and kills cells. Says Baler “1
room for second thoughts about the Cop­ per. IUD, the Copper T, with a standard worry about wliether we are doing ex­
per 7. At least as early as November, string configuration. But Searie has eon- periments on millions of women.”
1977, Searie received reports that.the centrated its marketing efforts on~flie
Xhe courts may not be the liest place
unique design of its inserter mechanism Popper 7. whose totded tail slrrng piF
coukl cause severe corapJicatiops. The mits use of an inserter barrel that c half to answer such complex medical ques­
tions. Years of Robins litigation proved
deswro ha* n-ver been changed.
the sizc ot competing
uets.
that. Even now, with the company in
■An iud is placed in a woman’s uterus
Why hash t Searie altered the design? Oaptcr 11, the debate about the Daikon
with an -inserter barrel, a hollow tube One explanation coukl be damaging to Shield
The debate alwit the
that comes from the-manufacturer with the company in court. Plaintiffs claim Coppercontinues.
7 is just beginning.
the in> in place at one end. In the U. S.. that Searie disregards safety in favor of
. Bf William H (llabrrwu in .Yew Turk
Slie wrote This one sentence hardly thread cqnnecfcd;to.Urn Iud. that remote
appears an adequate. precaution” Her '*Uaat«};afterinMrtk«ii ■Thetdil strings
.doctor^he said, told-hershe would prob- of
ably need a hysterectomy. A Searie offij inrerter mechanisms. Only tfie'Copper
aal wrote back questioning, whether the. 7Vstrmg is folded into the top of the
nurse had mdeed used a Copper- 7.. ■
inserter barrel ,an<frloops out over it.
Inside Searie, one key member of the
Once the iUD isinsertfidand the barrel
Copper 7 team was growing uneomfdrt- is'removed,-the siting, is stretched out
“b‘c
exaggerated claims. Dr,; and clip|ied by the doctor. But some docftnncrs B. 0 Bnen Jr., Searlc’s associate • tors say the Copper Ts plastic 'string has
rhroetor of dmical research in obstetrics : a .“memory”-of its folded position that
a ?em? in *• . an last for, the full' three-year fife of
teber, !S7£ He bhsled^rfcat he istid the dcric* The result, as^s Bsbert A.
were repeated Claims of lower compli- Hatcher, professor of obstctrics and gycation rates and higher effectiveness mrology aud head of the family plan­
ing than were Justified Whote O'Brien: ning . program at Emory University, is
"Thar continued use. in my opinion, is that the tail frequently pops back to the
both misleading and a thinly disguised, folded position. He* calls’this a “major

E

s

££££££!

A*, is.

«•

■ •

*.4

i
I

It

i

4444

■?!

.1

cosnrcowHwisoiis

.

/ *
*/

*

I
I - • .
I.
[

I

''

•^

K <x.rortn M WSS '

>

ft
!
V*
ft

1

!
V

i

i r

4''

ft*
,k*#>^

-ill -WJS

[r:
rlk

$
1l
t*

«
;

l

-I

mm
v) •

Ij

)

